     DEPARTMENT OF HEALTH AND HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

September 13, 2011



Report Number: A-04-10-04007

Mr. Lanier M. Cansler
Secretary
North Carolina Department of Health and Human Services
2001 Mail Service Center
Raleigh, NC 27699-2001

Dear Mr. Cansler:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Credit Balances at Private Diagnostic
Clinic, PLLC, at Duke University Medical Center as of March 31, 2010. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-10-04007 in all
correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr./
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Lanier M. Cansler


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





       REVIEW OF MEDICAID

        CREDIT BALANCES AT

PRIVATE DIAGNOSTIC CLINIC, PLLC,
       AT DUKE UNIVERSITY
         MEDICAL CENTER
      AS OF MARCH 31, 2010




                        Daniel R. Levinson

                         Inspector General 


                         September 2011

                          A-04-10-04007 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In North Carolina, the Department of Health and
Human Services (State agency) supervises the administration of the Medicaid program. Within
the State agency, the Division of Medical Assistance administers the Medicaid program.

Providers of Medicaid services submit claims to the State agency to receive compensation. The
State agency processes and pays the claims. Pursuant to 42 CFR § 433.10, the Federal
Government pays its share (Federal share) of State medical assistance expenditures according to
a defined formula.

Credit balances may occur when a provider’s Medicaid reimbursement exceeds the allowable
amount or when the reimbursement is for unallowable costs, resulting in an overpayment. Credit
balances also may occur when a provider receives payments from Medicaid and another third-
party payer for the same services. In such cases, the provider should return the overpayments
recorded in the credit balances to the Medicaid agency, and the State should refund the Federal
share of the overpayments to CMS (the Act, § 1903(d)(2)(A), and 42 CFR pt. 433, subpart F).

When overpayments occur, the State agency is responsible for seeking recovery from the provider
for amounts paid that are in excess of allowable amounts and that must be refunded to Medicaid.
Section 6506(a) of the Patient Protection and Affordable Care Act (P.L. No. 111-148) says that
States have up to 1 year from the date of discovery of an overpayment for Medicaid services to
recover, or to attempt to recover, the overpayment before making an adjustment to refund the
Federal share. Except for overpayments resulting from fraud, the State must make the adjustment no
later than the deadline for filing the quarterly expenditure report (Form CMS-64) for the quarter in
which the 1-year period ends, regardless of whether the State recovers the overpayment.

Although the State agency’s regulations do not require providers to refund Medicaid
overpayments within a specific period, section 7 of North Carolina’s Basic Medicaid Billing
Guide states that providers are required to submit a quarterly Medicaid credit balance report
showing all outstanding Medicaid credit balances reflected in the accounting records as of the
last day of each quarter.

The Private Diagnostic Clinic, PLLC (Duke Clinic), is the faculty practice plan associated with
the Duke University School of Medicine and Health System. Duke Clinic allows members of the
physician faculty of the School of Medicine to engage in private practice while conducting
clinical teaching and medical research. Duke Clinic is a for-profit professional limited liability
company located in Durham, North Carolina.



                                                i
OBJECTIVE

Our objective was to determine whether the Medicaid credit balances for patient services
recorded in Duke Clinic’s accounting records as of March 31, 2010, constituted overpayments
that the State agency should return to Medicaid.

SUMMARY OF FINDINGS

Some of the Medicaid credit balances recorded for patient services in Duke Clinic’s accounting
records as of March 31, 2010, constituted overpayments that the State agency should return to
Medicaid. Of the 100 invoice records in our sample, 52 contained overpayments, but 48 did not.
Additionally, 5 of 22 separately reviewed invoice records with credit balances greater than
$2,000 contained overpayments; however, 17 did not. Combining our results, we estimated that
the State agency should return $234,917 ($153,679 Federal share) to Medicaid.

Also, Duke Clinic had not submitted to the State agency the required quarterly Medicaid credit
balance report; however, it had previously identified and repaid some overpayments to the State
agency.

These deficiencies occurred because Duke Clinic’s policies and procedures were not adequate to
ensure that it reconciled the invoice records in a timely manner to identify and return
overpayments that were due the State agency. Duke Clinic’s policies and procedures allowed its
management to assign a low priority to reconciling its invoice records with Medicaid credit
balances. In addition, Duke Clinic officials stated that they were unaware of the State agency’s
requirements for the quarterly reporting of all outstanding Medicaid credit balances.

In response to our audit, Duke Clinic expanded its policies and procedures to prioritize the
reconciliation of its invoice records with Medicaid credit balances and to identify overpayments
for return to Medicaid. Further, Duke Clinic established policies to report its Medicaid credit
balances to the State agency on a quarterly basis.

RECOMMENDATIONS

We recommend that the State agency:

      refund $153,679 to the Federal Government for overpayments paid to Duke Clinic and

      work with Duke Clinic to ensure that it (1) reconciles credit balances and identifies
       overpayments in a timely manner and (2) reports and refunds Medicaid overpayments.

PRIVATE DIAGNOSTIC CLINIC, PLLC, COMMENTS

In written comments on our draft report, Duke Clinic said that it would refund $228,220 to the
State agency to resolve the estimated overpayments. Duke Clinic’s comments are included in
their entirety as Appendix C.




                                                ii
STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations. The State agency said that
it would initiate the recoupment process from Duke Clinic and reimburse the Federal share to
CMS. In addition, the State agency said that it would work with Duke Clinic to ensure that Duke
Clinic fully implements its stated corrective actions, including submission of the required
Quarterly Medicaid (credit) balance report. The State agency’s comments are included in their
entirety as Appendix D.




                                              iii
                                                     TABLE OF CONTENTS

                                                                                                                             Page


INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1            

            Medicaid Program..............................................................................................1            

            Federal and State Requirements Related to Medicaid Credit Balances .............1 

            Private Diagnostic Clinic, PLLC .......................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

            Objective ............................................................................................................2    

            Scope .................................................................................................................2   

            Methodology ......................................................................................................3        


FINDINGS AND RECOMMENDATIONS ....................................................................4 


          OVERPAYMENTS .................................................................................................4 


          FAILURE TO SUBMIT MEDICAID CREDIT BALANCE REPORT..................5 


          CAUSES OF DEFICIENCIES ................................................................................5 


          ESTIMATE OF THE UNALLOWABLE AMOUNT .............................................6 


          RECOMMENDATIONS .........................................................................................6                   


          PRIVATE DIAGNOSTIC CLINIC, PLLC, COMMENTS ....................................6 


          STATE AGENCY COMMENTS............................................................................6 


OTHER MATTER ...........................................................................................................7 


APPENDIXES


          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: PRIVATE DIAGNOSTIC CLINIC, PLLC, COMMENTS

          D: STAGE AGENCY COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In North Carolina, the Department of
Health and Human Services (State agency) supervises the administration of the Medicaid
program. Within the State agency, the Division of Medical Assistance administers the Medicaid
program.

Providers of Medicaid services submit claims to the State agency to receive compensation. The
State agency processes and pays the claims. Pursuant to 42 CFR § 433.10, the Federal
Government pays its share (Federal share) of State medical assistance expenditures according to
a defined formula.

Credit balances may occur when a provider’s Medicaid reimbursement exceeds the allowable
amount or when the reimbursement is for unallowable costs, resulting in an overpayment. Credit
balances also may occur when a provider receives payments from Medicaid and another third-
party payer for the same services. In such cases, the provider should return the overpayments
recorded in the credit balances to the Medicaid agency, and the State should refund the Federal
share of the overpayments to CMS (the Act, § 1903(d)(2)(A), and 42 CFR pt. 433, subpart F).

Federal and State Requirements Related to Medicaid Credit Balances

Under 42 CFR § 433.312, the State agency is responsible for seeking recovery from the provider for
amounts paid that are in excess of allowable amounts and refunding the Federal share to Medicaid.
Section 6506(a) of the Patient Protection and Affordable Care Act (P.L. No. 111-148)1 says that
States have up to 1 year from the date of discovery of an overpayment for Medicaid services to
recover, or attempt to recover, the overpayment before making an adjustment to refund the Federal
share. Except for overpayments resulting from fraud, the State must make the adjustment no later
than the deadline for filing the quarterly expenditure report (Form CMS-64) for the quarter in which
the 1-year period ends, regardless of whether the State recovers the overpayment. (See State
Medicaid Director Letter #10-014 (July 13, 2010).)


1
  The Patient Protection and Affordable Care Act, as amended by the Health Care and Education Reconciliation Act
of 2010 (P.L. No. 111-152), is called the Affordable Care Act and amended section 1903(d)(2)(C) of the Act
effective March 23, 2010. To the extent there is a conflict with existing regulatory language, the provisions of
section 6506(a) of the Affordable Care Act and CMS’s State Medicaid Director letter #10-014 supersede the Federal
regulations at 42 CFR pt. 433, subpart F.


                                                       1
Although the State agency’s regulations do not require providers to refund Medicaid
overpayments within a specific period, section 7 of North Carolina’s Basic Medicaid Billing
Guide states that providers are required to submit a quarterly Medicaid credit balance report
showing all outstanding Medicaid credit balances reflected in the accounting records as of the
last day of each quarter.

The State agency notifies providers of changes to coverage criteria, billing information, and
other program requirements through its general and special Medicaid bulletins. The bulletins
restate the requirement for providers to submit a quarterly Medicaid credit balance report.

Private Diagnostic Clinic, PLLC

The Private Diagnostic Clinic, PLLC (Duke Clinic), is the faculty practice plan associated with
the Duke University School of Medicine and Health System. Duke Clinic allows members of the
physician faculty of the School of Medicine to engage in private practice while conducting
clinical teaching and medical research. Duke Clinic is a for-profit professional limited liability
company located in Durham, North Carolina.

The Executive Director of Duke Clinic also serves as the Director of the Patient Revenue
Management Organization (PRMO). PRMO is a separate limited liability company within the
Duke University Health System that has more than 1,100 employees and collects approximately
$1.4 billion in net patient revenue. PRMO manages an integrated process across Duke’s
hospitals and clinics for scheduling, registration, charge processing, billing, and collection.

At the time of our audit, Duke Clinic had more than 920 physician members and produced more
than $300 million in net patient revenue. Duke Clinic is responsible for all ambulatory clinic
operations, business office functions, managed care contracting, compliance, and physician
compensation and benefits.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances for patient services
recorded in Duke Clinic’s accounting records as of March 31, 2010, constituted overpayments
that the State agency should return to Medicaid.

Scope

As of March 31, 2010, Duke Clinic’s accounting records contained 18,329 outstanding invoice
records2 with Medicaid credit balances totaling $1,300,812. Our sampling frame consisted of



2
 An invoice record is Duke Clinic’s record of account for accumulating charges and payments for the various cost
centers.



                                                        2
16,452 invoice records3 with credit balances of $2,000 or less totaling $961,876 as of March 31,
2010, that had a Medicaid payment posted to the invoice record and were outstanding for at least
60 days. Additionally, we reviewed 22 invoice records totaling $109,267 as of March 31, 2010,
with credit balances greater than $2,000 that had a Medicaid payment posted to the invoice
record and were outstanding for at least 60 days.

We did not review the overall internal control structure of the State agency or Duke Clinic. We
limited our internal control review to obtaining an understanding of the policies and procedures
that Duke Clinic used to review credit balances and report overpayments to the State agency.

From May through August 2010, we conducted fieldwork at the State agency’s offices and the
Medicaid Management Information System fiscal agent in Raleigh, North Carolina, and at
PRMO’s office in Durham, North Carolina.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws and regulations and State policy guidelines pertaining
        to Medicaid credit balances;

       reviewed Duke Clinic’s policies and procedures for reviewing credit balances and
        reporting overpayments to the State agency;

       traced Duke Clinic’s March 31, 2010, total credit balances for all payers to the accounts
        receivable records and traced the accounts receivable records to the trial balance;

       traced Duke Clinic’s total Medicaid credit balances from its accounting records and
        reconciled these balances to Duke Clinic’s total credit balances;

       created a sampling frame of 16,452 invoice records with Medicaid credit balances of
        $2,000 or less as of March 31, 2010, that had a Medicaid payment posted to the invoice
        record and were outstanding for at least 60 days;

       selected a random sample of 100 invoice records from the 16,452 invoice records
        (Appendix A);

       reviewed all 22 invoice records with credit balances greater than $2,000 as of March 31,
        2010, that had a Medicaid payment posted to the invoice record and were outstanding for
        at least 60 days;




3
  We excluded 1,848 invoice records that were outstanding for less than 60 days and 7 invoice records that were in
interim accounts.



                                                         3
      reviewed patient payment data, remittance advices, details of patient accounts receivable,
       and additional supporting documentation for each of the selected invoice records with
       credit balances;

      estimated the overpayments that should be returned to Medicaid pursuant to Federal and
       State requirements; and

      verified that Duke Clinic had refunded $6,697 to the State agency as of August 31, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Some of the Medicaid credit balances recorded for patient services in Duke Clinic’s accounting
records as of March 31, 2010, constituted overpayments that the State agency should return to
Medicaid. Of the 100 invoice records in our sample, 52 contained overpayments, but 48 did not.
Additionally, 5 of 22 separately reviewed invoice records with credit balances greater than
$2,000 contained overpayments; however, 17 did not. Combining our results, we estimated that
the State agency should return $234,917 ($153,679 Federal share) to Medicaid.

Also, Duke Clinic had not submitted to the State agency the required quarterly Medicaid credit
balance report; however, it had previously identified and repaid some overpayments to the State
agency.

These deficiencies occurred because Duke Clinic’s policies and procedures were not adequate to
ensure that it reconciled the invoice records in a timely manner to identify and return
overpayments that were due the State agency. Duke Clinic’s policies and procedures allowed its
management to assign a low priority to reconciling its invoice records with Medicaid credit
balances. In addition, Duke Clinic officials stated that they were unaware of the State agency’s
requirements for the quarterly reporting of all outstanding Medicaid credit balances.

OVERPAYMENTS

Section 1903(d)(2)(A) of the Act provides that amounts paid to a State shall be reduced to the
extent of any overpayment that the Secretary determines was made to the State.

Of the 100 invoice records in our sample, 52 contained overpayments. Additionally, 5 of the 22
separately reviewed invoice records with credit balances greater than $2,000 contained
overpayments. Based on our combined results, we estimated that the State agency should return
$234,917 ($153,679 Federal share) to Medicaid. Duke Clinic acknowledged that the
overpayments occurred, and we verified that Duke Clinic had refunded to the State agency




                                                4
$6,697 ($4,804 Federal share). The remaining $228,220 ($148,875 Federal share) was the
balance that Duke Clinic should have returned to the State agency.

The overpayments resulted from Duke Clinic’s receiving duplicate payments and third-party
payments, as well as making various billing and accounting errors. Duplicate payments were
typically caused by Duke Clinic erroneously generating multiple billings or by Medicaid paying
more than once for the same services. Third-party payments resulted from Duke Clinic’s
receiving payment from a third-party insurer, such as a commercial insurer or Medicare, for a
service paid for by Medicaid. Billing and accounting errors included overstated billings, the use
of incorrect identifiers for the type of services provided, and posting errors.

FAILURE TO SUBMIT MEDICAID CREDIT BALANCE REPORT

Section 7 of the State agency’s Basic Medicaid Billing Guide states that providers are required to
submit a quarterly Medicaid credit balance report showing all outstanding Medicaid credit
balances reflected in accounting records as of the last day of each quarter. The report requires
specific information for each credit balance on a claim-by-claim basis; the State agency uses the
report to monitor and recover credit balances due to Medicaid.

Duke Clinic failed to submit the report to the State agency. However, it had previously
identified and repaid to the State agency some Medicaid overpayments. According to the State
agency, Duke Clinic had not reported its outstanding Medicaid credit balances for the 2-year
period before our audit.

CAUSES OF DEFICIENCIES

As of March 31, 2010, Duke Clinic’s accounting records contained 18,329 outstanding invoice
records with Medicaid credit balances totaling $1,300,812 that Duke Clinic had not reconciled to
identify whether the balances constituted overpayments that should have been returned to the
State agency. The ages of the outstanding invoice records ranged from 1 day to more than 10
years, as shown in the table below.

                Outstanding Invoice Records With Medicaid Credit Balances

                                          Number of                      Medicaid
     Days Outstanding                   Invoice Records               Credit Balances
     1–59 days                             1,848                       $221,141
     60–365 days                           2,459                         364,996
     366–730 days                          2,431                         245,143
     731–1,095 days                        1,432                          79,947
     1,096–1,460 days                      1,726                          97,944
     1,461–1,825 days                      3,744                         158,578
     1,826–2,190 days                      4,255                         111,640
     2,191–3,704 days                        427                          12,874
     Interim accounts                           7                          8,549
        Total                             18,329                      $1,300,812


                                                5
This backlog occurred because Duke Clinic’s policies and procedures were not adequate to
ensure that it reconciled the invoice records in a timely manner. Duke Clinic’s policies and
procedures allowed its management to assign a low priority to reconciling its invoice records
with Medicaid credit balances. In addition, clinic officials stated that they were unaware of the
State agency’s requirements for the quarterly reporting of all outstanding Medicaid credit
balances.

In response to our audit, Duke Clinic modified its policies and procedures to assign a high
priority to the reconciliation of its outstanding Medicaid credit balances and to identify
overpayments for return to Medicaid. Further, Duke Clinic established policies to report its
Medicaid credit balances to the State agency on a quarterly basis. On July 30, 2010, Duke Clinic
submitted its initial Medicaid credit balance report to the State agency for the quarter ended
June 30, 2010.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 invoice records in our sample, 52 contained estimated Medicaid overpayments of
$230,585 ($150,477 Federal share). (See Appendix B for details of our sample results and
estimates.) In addition, 5 of the 22 separately reviewed invoice records with credit balances
greater than $2,000 contained overpayments of $4,332 ($3,202 Federal share). Based on our
combined results, we estimated that $234,917 ($153,679 Federal share) should be returned to
Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

      refund $153,679 to the Federal Government for overpayments paid to Duke Clinic and

      work with Duke Clinic to ensure that it (1) reconciles credit balances and identifies
       overpayments in a timely manner and (2) reports and refunds Medicaid overpayments.

PRIVATE DIAGNOSTIC CLINIC, PLLC, COMMENTS

In written comments on our draft report, Duke Clinic said that it would refund $228,220 to the
State agency to resolve the estimated overpayments. Duke Clinic’s comments are included in
their entirety as Appendix C.

STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations. The State agency said that
it would initiate the recoupment process from Duke Clinic and reimburse the Federal share to
CMS. In addition, the State agency said that it would work with Duke Clinic to ensure that Duke
Clinic fully implements its stated corrective actions, including submission of the required
Quarterly Medicaid (credit) balance report. The State agency’s comments are included in their
entirety as Appendix D.


                                                 6
                                      OTHER MATTER

As of March 31, 2010, Duke Clinic’s accounting records contained 990 outstanding out-of-State
Medicaid invoice records with credit balances totaling $134,223 that the clinic had not
reconciled, nor had it identified whether the balances were overpayments that should be returned
to the applicable State Medicaid program.

Duke Clinic did not have a unique identifier for each State Medicaid program; instead, the clinic
used a generic code for most out-of-State Medicaid payments. Accordingly, the clinic could not
associate the out-of-State Medicaid credit balances with the appropriate State Medicaid program.
Duke Clinic has to reconcile its outstanding out-of-State Medicaid invoice records before it can
determine whether the balances were overpayments that should be returned to the applicable
State Medicaid program.




                                                7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of all invoice records with a credit balance as of March 31, 2010, with
a North Carolina Medicaid payment posted to the invoice record.

SAMPLING FRAME

The sampling frame consisted of 16,452 invoice records with credit balances of $2,000 or less
totaling $961,876 as of March 31, 2010, that had a Medicaid payment posted to the invoice
record and were outstanding for at least 60 days.

SAMPLE UNIT

The sampling unit was an invoice record.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 invoice records.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the invoice records in the sampling frame from 1 to 16,452. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of overpayments.
              APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                      Sample Results


                                                                     Value of
                                           Number
                              Value                     Value of   Overpayments
Frame    Value of   Sample                    of
                               of                     Overpayments  in Sample
 Size     Frame      Size                Overpayments
                             Sample                    in Sample     (Federal
                                          in Sample
                                                                      Share)
16,452   $961,876    100      $5,917          52         $2,365       $1,603


                         Estimated Value of Overpayments
               (Limits Calculated for a 90-Percent Confidence Interval)

                     Point estimate                     $389,045
                     Lower limit                         230,585
                     Upper limit                         547,506

                 Estimated Value of Overpayments (Federal Share)
               (Limits Calculated for a 90-Percent Confidence Interval)

                     Point estimate                     $263,679
                     Lower limit                         150,477
                     Upper limit                         376,882
APPENDIX C: PRIVATE DIAGNOSTIC CLINIC, PLLC, COM MENTS




u    Private Diagnostic Clin ic, PLLC
     AI DUKE UNIVERSITY HEALTH SYSTEM

   April 29, 2011


   Report Number A-04-1CH>4007

   Peter J . Barbera
   Regional Inspector General for Audit Services
   Office of Audit SefVices, Region IV
   61 Forsyth Street, S'N, Suite 3141
   Atlanta, GA 30303


   Dear Mr. Barbera:

   The Private Diagnostic Clinic (POC) is receipt of the above named report. First ret me say the
   elG staff that participated in this review were excellent to work with . I found them to be
   professional and respectful.

   We accepllhe report as written , but wish to respond in the following manner:

       The PDC agrees, the necessary process/effort to ensure quarterly Medicaid credit balance
       reporting has been made. We woold recommend that Medicaid clarify their fofms to
       accurately reflect the provider types who are required to complete these reports.

       The review process !of credit balances has been reevaluated and refined to address the
       volume of transactions the POC's billing agent (PRMO) must process, to Include adding
       additional temporary and permanent staff to WOf1t the credit balances and engaging the
       services of a national consulting firm to assist the POC In designing analytical methods to
       resolve invoices.

   • 	 The POCIPRMO did not intentionally assign a low priority to the Medicaid accounts. Rather,
       the POC/PRMO has tried over time to address the InvoiCes in a number of different ways ,
       Including prioritizing high dollar and older accounts. As was staled in the report, the POC
       has now assigned a high re solution priority to Medicaid. As noted during Ihe audi\.
       refinement of the Medicaid remittance advice could assist providers in reducing credit
       balances that must be reviewed which do not require refun-ds.

   • 	 As soon as North Carolina Medicaid requests payment, the POC will refund the amount of,
       $228,220, wtlich the POC understands win fully resolve all the accounts In the audit
       population (frame size).




                                                    S'<OIL
                                                     P I R Newman
                                              ' - - '''''ec:utive Director, Private Diagnostic Clinic
                                                                                                                          Page 10f2


                         APPENDIX D: STATE AGENCY COMMENTS 





                           North Carolina Department of Health and Human Services 

                               2001 Mail Service Center· Raleigh, North Carolina 27699·2001 

                                           Tel 919-733-4534· Fax 919-715-4645 

Beverly Eaves Perdue, Governor 	                                                                       Lanier M. Cansler, Secretary

                                                            July27,2011


       Mr. John T. Drake, Sr. 

       Acting Regional Inspector General for Audit Services 

       US DHHS Office of Inspector General 

       61 Forsyth Street SW 

       Suite JT41 

       Atlanta, GA 30303 


       Re: Review of Medicaid Credit Balances al Private Diagnostic Clinic, PLLC, at Duke University Medical
       Center as of March 31, 2010
            CIN A-04-10-04007


       Dear Mr. Drake:

       The North Carolina Department of Health and Human Services (NCDHHS) has received your June 15,2011
       letter and the draft report entitled " Review of Medicaid Credit Balances at Private Diagnostic Clinic, PLLC, at
       Duke University Medical Center as of March 31, 2010" [A udit A-04- 10-04007]'

      The recommen dat ions were for the State agency to:

       • 	 Refund $153,679 to the Federal Govcmment for Medicaid credit balances at the Duke Clinic and;

       • 	 Work with Duke Clinic to ensure that it (1) reconciles credit balances an d identifies overpayments in a
           timely manner and (2) reports and refunds NC DMA the Medica id overpayments.


      DHHS Response: The Department concurs with the summary ojfindings that the Medicaid credit .balances for
      patiem services recorded in Duke Clinic's accounting records as of March 31, 2010, constituted overpayments
      totaling $23{917 due back 10 the Stale Medicaid division. The State agency will return the federal share of
      $153,679 and will retain the balance constituting the Stale share. The Department also agrees with the finding
      that the Duke Clinic had nol submit/ed the required quarterly Medicaid credit balance reporl for the 2-year
      period bejore the audit.

       The Department will initiate the repayment process by reqlH!sting reimbursement totaling $228,220 ($234,917
       leu $6,697 previously refunded as oj8-3/-10) from the Duke Clinic to be received by August /5, 2011. Once
       the fonds are recouped from the provider, the Department will reimburse the Federa/ share to CMS Jar the
       identified overpayments. The anticipated target dale for corrective action to be completed is September 30,
       2011.



                                   Location: 101 Blair Drive' A.wns Building ' Raleigh, N.c. 27603 

                                           Nt Equal Opportunity J Affinn.tive Action Emplofe' 

                                                                                                          Page 20f2



Mr. Jolm T. Drake, Sr.
Audit A..(l4-10-04007
July27,2011
Page 2 of2

In addition, lhe Division ofMedical Assistance 's Third Party Recovery Chie/will work willi the Duke Clinic to
ensure Duke Clinic fully implements its stated Corrective Action, including submission of the required
Quarterly Medicaid balance report /0 the Depor/menl. The Third Party Recovery Chief will review lhe
submi/fed reports in an ongoing effort/o monitor and recover any credit balances due to Medicaid in a timely
manner.

We appreciate the assistance and professionalism provided by the DIG staff in the perfunnance ofthis audit. If
you need any additional infonnation please contact Monica Hughes at (9\9) 855·3720.


Sincerely,




cc:   Dan Stewart. CPA
      Craigan Gray. MD, MBA, JD
      Tara Larson
      Eddie Benyman, CPA
      Laketha M. Miller, CPA
      Leigh Ann Kerr
